                                   FEDERAL TRADE COMMISSION
                                     WASHINGTON, D. C . 20580
                                                                                         0




     OFFICE OF
INSPECTOR GENERAL

                                                      March 15, 2013


 MEMORANDUM

 TO:                Chairman Edith Ramirez
                    Commissioner Julie Brill
                    Commissioner Maureen K. Ohlhausen
                    Commissioner Joshua D. Wright

 FROM:              ScottE. Wilson        /--A)~
                    Inspector General   ~~
 SUBJECT:           Federal Trade Commission's Compliance with the Improper Payments
                    Elimination and Recovery Act of 2010

 Dear Chairman Ramirez and Commissioners:

 In accordance with Section 3 (b) ofPublic Law 111-204, Improper Payments Elimination and
 Recovery Act of2010 (hereafter referred to as IPERA), this letter communicates the results of my
 determination of the Federal Trade Commission's (FTC) compliance with applicable provisions
 of the IPERA. This letter covers the FTC's Fiscal Year (FY) 2012 activities.

 Section 3(a) (3) of the IPERA defines "compliance" as follows:

         The agency-

         (A) has published an annual financial statement for the most recent fiscal year and posted
             that report and any accompanying materials required under guidance of the Office of
             Management and Budget (OMB) on the agency website;

         (B) if required, has conducted a program specific risk assessment for each program or
             activity that conforms with section 2(a) of the Improper Payments Information Act of
             2002 (31 U.S.C. 3321 note); and

         (C) if required, publishes improper payments estimates for all programs and activities
             identified under section 2(b) of the Improper Payments Information Act of2002 (31
             U.S.C. 3321 note) in the accompanying materials to the annual financial statement;

         (D) publishes programmatic corrective action plans prepared under section 2(c) of the
             Improper Payments Information Act of2002 (31 U.S.C. 3321 note) that the agency
             may have in the accompanying materials to the annual financial statement.
OMB issued guidance 1 for Inspectors General to aid in their review of agencies' compliance with
IPERA. Specifically, the guidance defines compliance to mean that the agency has:

          •   Published a Performance Accountability Report (PAR) for the most recent Fiscal Year
              and posted that report and any accompanying materials required by OMB on the agency
              website;
          •   Conducted a program specific risk assessment for each program or activity that conforms
              with Section 3321 ofTitle 31 U.S.C (if required);
          •   Published improper payment estimates for all programs and activities identified as
              susceptible to significant improper payments under its risk assessment (if required);
          •   Published programmatic corrective action plans in the PAR (if required) ;
          •   Published, and has met, annual reduction targets for each program assessed to be at risk
              and measured for improper payments;
          •   Reported a gross improper payment rate of less than 10 percent for each program and
              activity for which an improper payment estimate was obtained and published in the PAR;
              and
      •       Reported information on its efforts to recapture improper payments.

Based on OMB 's definition of compliance, as described above, I have determined that the FTC is
compliant. The agency has published an annual financial statement for the most recent FY and
posted that report and any accompanying materials as required by OMB on the agency website
http://www.ftc.gov/. FTC concluded and reported in its PAR that it has not identified any
program that constitutes a high risk for improper payments and considers all of its payments to be
low risk. The agency is not required to publish improper payment estimates, corrective action
plans, or reduction targets. Further, during my review of relevant prior year data (expenditures
and accounts receivable due from the public), nothing came to my attention that indicates the
agency is susceptible to significant improper payments.

If you have questions or comments, please contact me on (202) 326-3787.


cc:           Pat Bak, Acting Executive Director
              Steven A. Fisher, Acting Deputy Executive Director
              James Baker, Acting Chief Financial Officer
              Jon Schroeder, Assistant CFO for Financial Policy, Reporting, and Controls




I See OMB Memorandum M-11-16, dated April14, 2011 , Issuance ofRevised Parts I and II to Appendix C ofOMB
Circular A-123.
CC:   The Honorable Thomas R. Carper
      Chairman
      Senate Committee on Homeland Security & Governmental Affairs
      340 Dirksen Senate Office Building
      Washington, D.C. 20510

      The Honorable Tom Coburn
      Ranking Member
      Senate Committee on Homeland Security & Governmental Affairs
      340 Dirksen Senate Office Building
      Washington, D.C. 20510

      The Honorable Darrell E. Issa
      Chairman
      Committee on Oversight and Government Reform
      2157 Rayburn House Office Building
      Washington, D.C. 20515

      The Honorable Elijah E. Cummings
      Ranking Member
      Committee on Oversight and Government Reform
      2157 Rayburn House Office Building
      Washington, D.C. 20515

      Gene Dodaro
      Comptroller General of the United States
      Government Accountability Office
      441 G Street, N.W.
      Washington, D.C. 20548

      Jeffrey Zients, Acting Director
      Office of Management & Budget
      1650 Pennsylvania A venue
      Room 216
      Washington, D.C. 20503

      Daniel I. Werfel
      Controller, Office of Federal Financial Management
      Office of Management and Budget
      725 17th Street, N.W.
      Washington, D.C. 20503
